         EVALUATION OF OUTSIDE WORK ISSUES
                        FOR
          DEPARTMENT OF LABOR EMPLOYEES




                    OFFICE OF THE SOLICITOR


_______________________________________________________________




                                  Report No. 2E-08-001-0001
                                  Date Issued: September 29, 2000
                                                 TABLE OF CONTENTS


ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          1.         There are inconsistencies in DOL regarding when and how employees seek
                     approval for work outside the agency. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          2.         The list of DOL Ethics Contacts is not current. . . . . .. . . . . . . . . . . . . . . . . . 10


EXHIBIT

          1.         Summary of Executive Branch Requirements for Outside Work. . . . .11

APPENDIX

          Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .22
          ACRONYMS



ALJ    Administrative Law Judges

DOL    Department of Labor

MSHA   Mine Safety and Health Administration

OGE    Office of Government Ethics

OIG    Office of Inspector General

SOL    Solicitor of Labor




                i
                                      EXECUTIVE SUMMARY

We conducted this evaluation to determine if there is a need for the Department of Labor (DOL) to
broaden the existing “supplemental standards of ethical conduct for employees of the Department
of Labor” (Title 5, Part 5201), which address outside work issues.

The Office of Government Ethics (OGE) provides leadership in the executive branch to prevent and
resolve conflicts of interest on the part of Government employees. Each government agency is required
to assign a Designated Agency Ethics Official. In DOL this responsibility is assigned to the Solicitor of
Labor. In assisting the Solicitor of Labor in this area, the Division of Legislation and Legal Counsel has
overall responsibility for administering the Department’s ethics program.

On February 3, 1993, new regulations pertaining to ethics and conduct became effective as part of an
effort to establish a uniform ethics code for all government employees regardless of agency. Executive
branch agencies were permitted to issue agency-specific supplemental regulations necessary to
implement their ethics programs. On November 6, 1996, DOL, with OGE concurrence, issued an
interim rule with request for comments, setting forth “Supplemental Standards of Ethical Conduct
for Employees of the Department of Labor.” This interim rule addressed a variety of ethics
provisions, including a restriction on outside employment and the holding of certain financial interests by
employees of the Mine Safety and Health Administration, and by their spouses and minor children. It
also required employees in DOL’s Office of the Inspector General to obtain prior approval for outside
employment.


 RESULTS OF EVALUATION

Our evaluation identified areas where improvements, if implemented, will reduce the potential for actual
and perceived conflicts of interests to arise. Furthermore, the Solicitor’s Office will more effectively
oversee the Department’s ethics program.

FINDING 1 -There are inconsistencies in DOL regarding when and how employees seek
           approval for work outside the agency.

In DOL there is no central repository for information pertaining to outside work. While employees who
are required to file financial disclosure reports provide information pertaining to outside financial
interests as part of their filing, this information is only reviewed within each agency. Also, there are
positions that fall outside the requirement to file financial disclosure reports that are sensitive enough to
warrant approval before outside work occurs.


                                                      ii
There is a greater risk for an appearance of a conflict of interest without a mechanism in place to verify
if a conflict exists. An employee may have a presumption that involvement in outside work is
acceptable until it actually becomes a problem for the employee. We view the need for such
regulations as a safety measure against the appearance of a conflict of interest for certain types of
positions within DOL.

We believe that universal prior approval would be unnecessarily burdensome and intrusive, particularly
in those instances in which the employee’s outside employment poses little danger to the interests of
DOL. However, employees who file financial disclosure reports hold either high-level positions or
positions that have a direct effect on the interests of outside organizations. Therefore, prior approval of
outside employment for these employees is warranted. Also, there are other DOL employees in
positions which are typically sensitive to possible conflict of interest questions, and should be subject to
prior approval for outside work. For example, DOL attorneys, all levels of procurement and contract
specialists, and certain types of investigators should be covered under supplemental regulations in order
to avoid conflict of interest questions.
FINDING 2 - The list of DOL Ethics Agency Contacts is Not Current.

During our evaluation we were provided a list of DOL Ethics Contacts, dated June 2000. The list
contains names of employees who are either no longer with DOL, or who no longer serve as an ethics
contact. We believe the list should be updated immediately and that all DOL employees should be
notified in writing of the identification of their agency ethics contact.


 RECOMMENDATIONS

1.      The Solicitor’s Office should submit a proposal to the Office of Government Ethics to amend
        DOL’s existing supplemental regulations pertaining to outside work issues. The amendment
        should broaden the requirement for approval of outside work to cover employees who are
        financial filers, and other specified groups of employees. It should also ensure coverage of
        those groups currently covered in existing, informal DOL agency guidelines, such as those in the
        Occupational Safety and Health Administration’s directive on outside work, SOL’s guidelines
        for pro bono work, and the Administrative Law Judges’ policy guidelines.

2.      The Solicitor’s Office should update its list of agency Ethics Contacts, and ensure its distribution
        to all employees.




                                                     iii
  SOL RESPONSE AND OIG CONCLUSIONS

The agency’s response to the OIG’s official draft report generally agrees with the recommendations
made. Recommendation two has been resolved and will be closed pending OIG’s receipt of
appropriate documentation. Recommendation one remains unresolved, pending receipt of SOL’s
results of their internal review, and a time line for submitting a proposal to the Office of Government
Ethics for additional supplemental standards covering the issue of outside work for DOL employees

The agency’s complete response is found in the Appendix.




                                                    iv
                                           BACKGROUND

On February 3, 1993, new regulations pertaining to ethics and conduct became effective as part of an
effort to establish a uniform ethics code for all government employees regardless of agency. The
regulations were issued by the Office of Government Ethics, an agency within the executive branch that
was established by the Ethics in Government Act of 1978.

The Office of Government Ethics (OGE) provides leadership in the executive branch to prevent
conflicts of interest on the part of Government employees, and to resolve conflicts of interest that occur.
In partnership with executive branch agencies and departments, OGE fosters high ethical standards for
employees and strengthens the public’s confidence that the Government’s business is conducted with
impartiality and integrity.

Each government agency is required to assign a Designated Agency Ethics Official. In the Department
of Labor (DOL) this responsibility is assigned to the Solicitor of Labor. The Division of Legislation and
Legal Counsel has overall responsibility for administering the ethics program.

In conjunction with OGE’s issuance of new ethics and conduct regulations in 1993, DOL formally
repealed most of its old rules on June 23, 1994. As permitted by OGE, DOL temporarily retained the
old rules restricting outside employment and financial interests. The “grace period” for the old rules
expired on November 1, 1996.

Executive branch agencies were permitted to issue agency-specific supplemental regulations necessary
to implement their ethics programs. On November 6, 1996, DOL, with OGE concurrence, issued an
interim rule with request for comments, setting forth Supplemental Standards of Ethical Conduct for
Employees of the Department of Labor. This interim rule addressed a variety of ethics provisions,
including a restriction on outside employment and the holding of certain financial interests by employees
of the Mine Safety and Health Administration, and by their spouses and minor children. It also required
employees in the Office of the Inspector General to obtain prior approval for outside employment.
These supplemental standards were codified at 5 CFR § 5201.

The interim rule also repealed 29 CFR 0.735-13, one of the remaining provisions of DOL’s Ethics and
Conduct Regulations. This provision required prior approval of outside employment or activities.
Pursuant to the OGE Standards, this provision was superseded upon issuance of the interim rule. The
final rule was effective on January 31, 2000. It adopted and made final the interim regulations.




                                                     1
There are certain general principles, as well as specific standards, that are expected of Executive
branch employees. Furthermore, employees must strive to avoid any action that would create the
appearance that they are violating the law or ethical standards.




                                                    2
                                 PURPOSE AND METHODOLOGY


  PURPOSE

The purpose of this evaluation was to determine if there is a need to broaden the existing supplemental
standards of ethical conduct for employees of DOL in the area of outside work issues. To make a
determination on this issue we sought to answer the following questions: (1) are there inconsistencies in
the Department regarding approval of outside work; (2) should employees in specified positions in
DOL be required to seek prior approval for outside work; and, (3) how are employees trained on the
subject of outside work issues?


 METHODOLOGY

We obtained information pertaining to:

        •        DOL’s ethics program from the Department’s Acting Ethics Counsel, from the
                 Department’s website, and from DOL agency ethics contacts;

        •        OGE’s responsibilities from their legal counsel and from their website;

        •        Ethics programs of other government agencies from the OGE website, and from the
                 specific agency websites.

We interviewed representatives from the OGE, the DOL Solicitor’s Office, DOL agency ethics
contacts1, and other government agency representatives charged with the responsibility of administering
their ethics programs.




        1
         We were provided a list of DOL ethics contacts dated June 2000. We interviewed ten National Office
agency ethics agency contacts.

                                                       3
                               FINDINGS AND RECOMMENDATIONS


 Finding 1

 There are inconsistencies in DOL regarding when and how employees seek approval for work
 outside the agency.



Regulations and Supplemental Standards Pertaining to Outside Work of Government
Employees

Standards applicable to outside work are contained in the “Standards of Ethical Conduct for
Employees of the Executive Branch”, issued by the Office of Government Ethics2. This regulation
states the following: “When required by agency supplemental regulation issued after February 3,
1993, an employee shall obtain prior approval before engaging in outside employment or
activities. Where it is determined to be necessary or desirable for the purpose of administering
its ethics program, an agency shall, by supplemental regulation, require employees or any
category of employees to obtain prior approval before engaging in specific types of outside
activities, including outside employment.”

In essence, each federal agency determines what reporting requirements to impose on employees who
seek outside employment. Under the government-wide standards of conduct issued by OGE, it is up to
employees to make sure they are not engaging in conflicts of interest. OGE does not impose any
requirements for prior approval of outside work.

DOL has Supplemental Standards of Ethical Conduct for Employees of DOL 3. These standards
include additional rules for two DOL agencies: (1) the Office of the Inspector General (OIG)–requires
written approval of the Inspector General or the Inspector General’s designee before an employee
engages in any outside employment; (2) the Mine Safety and Health Administration (MSHA)–prohibits
employees and their spouses and minor children from having any financial interests (including
compensated employment) in any company or other person engaged in mining activities subject to the
Federal Mine Safety and Health Act of 1977, 30 U.S.C. 801 et seq.




         2
          5 C.F.R. Part 2635, § 2635.803, (1/1/99 Edition), as amended at 64 FR 2421-2422 (1/14/99) and 64 FR 13063-
13064 (3/17/99)

         3
          Final Rule 5 C.F.R., Part 5201, 20 C.F.R., Part O

                                                              4
In addition to the OGE Regulations and DOL supplemental standards, we reviewed the ethics
standards for other executive branch agencies to determine how they addressed the issue of outside
work. During interviews with representatives of the Solicitor’s Office, we were informed that most
other government agencies do not have supplemental regulations on the issue of outside work for their
employees. However, in our review of the 14 executive branch agencies we found that 10 of 14
agencies do have supplemental regulations that address outside work issues, and one agency is in the
process of developing such regulations (the State Department). Reference Exhibit 1 for information on
these supplemental regulations.

The degree of employee coverage varies among government agencies that have the supplemental
regulations. Some require prior approval for all employees (other than a special Government
employee4) who file either a public or confidential financial disclosure report or an alternative form of
reporting approved by OGE. Other agencies have additional approval requirements for specified job
titles (e.g. attorneys, consultants, etc.) or for employees within specified agencies. DOL is the only
agency with supplemental regulations for only one of its agencies–the Office of Inspector General. As
we noted above, additional standards for MSHA employees are included in DOL’s supplemental
standards on ethics. However, there is no specific provision that requires prior approval from the
Department before MSHA employees engage in outside employment.

In an interview with OGE we learned that supplemental regulations pertaining to outside work issues
were established by many government agencies to meet the specialized needs of the agencies. Each
agency found a way to carve out exceptions applicable to their environment and address them in the
regulations. Normally, approval for outside work is a fairly centralized process. Financial filers may be
covered in terms of outside work and conflict of interest issues, but without a process in place that
specifically addresses the need for prior approval, both the employee and DOL leave themselves
vulnerable to potentially embarrassing situations in this area.

Information pertaining to outside financial interests is part of the reporting requirement for those
employees who file financial disclosure reports. However, there is no way to ensure DOL’s
consistency in how these issues are handled because each agency reviews their own financial disclosure
forms. We found no central repository for reviewing this information. While most agency ethics
contacts may contact SOL when a problem arises, there is no requirement that they do so. The lack of
an open mechanism that is used throughout DOL to verify outside work issues leaves DOL vulnerable
to the appearance of conflict of interest issues.



         4
           Special Government employee means those executive branch officers or employees specified in 18 U.S.C.
202(a). A special Government employee is retained, designated, appointed, or employed to perform temporary duties
either on a full-time or intermittent basis, with or without compensation, for a period not to exceed 130 days during
any consecutive 365-day period.

                                                          5
SOL explained the decision-making process used for determining whether supplemental regulations on
outside work were needed for DOL. Following OGE’s issuance of new ethics and conduct
regulations, and after the expiration of DOL’s prior regulations on outside work issues in 1996, SOL
surveyed agencies regarding their interest in regulations to cover outside work issues. SOL reported
that OIG was the only office that responded affirmatively. Therefore, OIG is the only agency in DOL
with such supplemental regulations.

We believe that allowing agency heads to express their views on ethics-related policies and procedures
is a good practice for DOL. However, SOL should continue to ensure that such input is only a part of
the process for making a final determination on regulatory issues pertaining to ethics, with the Division
of Legislation and Legal Counsel as the guiding authority. This approach will leave DOL less vulnerable
to actual and perceived conflict of interest issues.

Awareness of Ethics Requirements for DOL Employees

The OGE regulations set forth the basic code of conduct and are a starting point for resolving many
ethics-related questions for DOL employees (except those in OIG, who have supplemental regulations
that apply to them).

There are several ways for DOL employees to ensure awareness of their responsibilities in the area of
ethics:

(1)      Employees are encouraged to review the government-wide ethics regulations at an early point
         in their tenure and to attend ethics training when it is required. Most employees receive ethics
         training shortly after their arrival on duty at DOL.

(2)      Those employees who are required to file a public financial disclosure report5 are required to
         receive a "live" briefing on an annual basis. Employees required to file a confidential financial
         disclosure report6 are required to attend a "live" ethics briefing every three years. DOL also


         5
           All Presidential appointees, all career and non-career Senior Executive Service employees, all career and
non-career employees paid above the GS-15 rate, and most Schedule C employees are required to file public financial
disclosure reports (SF-278's) within thirty days of entering a covered position. Reports must also be filed annually on
May 15 and within thirty days of terminating employment. An employee who fails to file any of these reports in a
timely fashion is subject to a $200 late filing fee. These financial disclosure reports are available for inspection when
a written request is made by any individual or organization.

         6
          Each agency within the Department has designated certain positions at or below the GS-15 level for
coverage under a corresponding system of confidential financial disclosure reports (OGE-450's) for career employees
and certain "special government employees." Employees in these positions must file a confidential report within 30
days of their employment and by October 31each year thereafter.

                                                            6
        provides written ethics materials to confidential financial disclosure filers during the years that
        "live" attendance is not required.

(3)     Ethics training may also be provided upon the request of an office.

(4)     Employees are strongly encouraged to ask questions pertaining to ethics-related matters. They
        are cautioned that "preventive medicine" is the best course of action to avoid embarrassment.
        Advice can be obtained from agency ethics contacts or from the Office of the Solicitor Ethics
        Counselor.

(5)     SOL has posted information on its website pertaining to DOL’s ethics requirements.

OGE Restrictions on Outside Employment

Government employees are prohibited from taking official action affecting the financial interests of any
organization or individual with whom they are seeking or negotiating employment or with whom they
have any arrangement concerning prospective employment.

An employee, regardless of level, cannot accept compensation from any source other than the
Government for teaching, speaking, or writing that relates to the employee's official duties. There is an
exception for teaching requiring repeated appearances as part of the regularly established curriculum at
a college, secondary or elementary school. Presidential appointees may not receive any outside
income.

Interviews with DOL Ethics Contacts

Half of the interviewees stated it would be beneficial to the agency to have certain types of positions
covered for preapproval of outside work in order to avoid an appearance of a conflict of interest. It
was stated that such regulations would be a safeguard for both the employees and DOL.

Less than half of the interviewees stated they maintain records pertaining to questions and requests for
approval on outside work issues. One interviewee said it depends on the nature of the request, that
sometimes documentation is maintained and sometimes it is not.

The ethics contact for the Office of Safety and Health Administration (OSHA) informed us that they
have their own agency guidelines pertaining to outside work in OSHA Directive Per 3.3–Outside
Employment– Teaching, Lecturing and Writing, dated 10/30/78. While the directive addresses the
parameters for OSHA employees accepting teaching, lecturing or writing positions, it also specifically
states in section 4 - Action, that “any OSHA employee who is engaged in or is planning to engage
in outside employment, business or professional activity must request clearance for such activity

                                                      7
in writing from his Regional Administrator (if field) or from the appropriate Office Director in
Washington, D.C. The request must (a) identify the employee by name, title, grade and location,
(b) contain a statement of the employment or activity planned, (c) state the amount of time to be
devoted to the employment or activity, and (d) include a statement to the effect that the
employee is fully informed of and understands the requirements of all laws, orders, regulations,
and standards applicable to the activities for which clearance is being requested.” While there is
no evidence that this agency directive has been canceled or superseded, we believe the policy is not
adhered to on a consistent basis.

Both the Bureau of Labor Statistics and the Pension and Welfare Administration ethics contacts stated
they have a process in place for approving outside work requests, but there is no policy or procedural
information in writing on the subject.

Conclusion
The appearance of conflict of interest issues continues to be a concern among government agencies.
Without supplemental regulations addressing the issue of outside work interests, an employee has a
presumption that involvement in outside work is acceptable until it actually becomes a problem for the
employee. We view the need for such regulations as a safety measure against the appearance of a
conflict of interest for certain types of positions within DOL.


We believe that universal prior approval would be unnecessarily burdensome and intrusive, particularly
in those instances in which the employee’s outside employment poses little danger to the interests of
DOL. However, employees who file financial disclosure reports hold either high-level positions or
positions that have a direct effect on the interests of outside organizations. Therefore, prior approval of
outside employment for these employees is warranted. Also, there are other DOL employees in
positions which are typically sensitive to possible conflict of interest questions, and should be subject to
prior approval for outside work. For example, DOL attorneys, all levels of procurement and contract
specialists, and certain types of investigators should be covered under supplemental regulations in order
to avoid conflict of interest questions.


 Recommendation 1
 SOL should submit a proposal to the Office of Government Ethics to amend the Department of
 Labor’s existing supplemental regulations pertaining to outside work issues. The amendment should
 broaden the requirement for approval of outside work to cover employees who are financial filers,
 and other specified groups of employees. It should also ensure coverage of those groups currently
 covered in existing, informal DOL agency guidelines, such as those in OSHA’s directive on outside
 work, SOL’s guidelines for pro bono work, and the ALJ’s policy guidelines.


                                                     8
SOL’s Planned Actions in Response to Recommendation Number One:


“...the Office of the Solicitor will undertake, in the next 90 days, to again survey the
Department’s component agencies and talk with the appropriate officials in order to determine
whether the requirement for approval of outside work should be broadened...We will report the
results of our review to the OIG after its conclusion.......we are considering implementing, in the
near future, computer-based ethics training modules and enclosing summaries of the ethics rules
in all future public and confidential financial disclosure form packets.....In addition, we could
also consider expanding mandatory training in the next calendar to encompass all Department
employees GS-11 and above, including all filers, whether public or confidential, and those
employees who, although they may not be designated as filers, nevertheless have duties that may
warrant heightening their awareness of the conflict of interest laws and ethics regulations.”


OIG’s Conclusion on Recommendation Number One :


We consider this recommendation unresolved. We agree with SOL’s plans to: (a) survey the
Department’s component agencies in order to obtain additional input regarding which positions should
be covered under supplemental standards; (b) consider computer-based ethics training modules; and
(c) to consider the expansion of mandatory ethics training. However, these actions will not necessarily
mitigate the appearance of conflict of interest issues which are of concern. Until supplemental
regulations addressing the issue of outside work interests are finalized, an employee may continue to
presume that involvement in outside work is acceptable until it actually becomes a problem for the
employee. We view the need for such regulations as a safety measure against the appearance of a
conflict of interest for certain types of positions within DOL.
To resolve this recommendation, please provide this office with the results of your internal review, and a
time line for submitting a proposal to the Office of Government Ethics for additional supplemental
standards covering the issue of outside work for DOL employees, by January 31, 2001.




                                                    9
 Finding 2
 The list of DOL Ethics Contacts is not current.



SOL provided us a list of agency Ethics Contacts dated June 2000. These individuals serve as liaisons
between the SOL Ethics Counselor and their individual agencies. Three of the thirteen ethics contacts
from the Headquarter’s Office who we attempted to interview were no longer with their agencies: one
had left government service in 1998, and two had transferred to other agencies. In one agency no one
knew what we were talking about when we asked to speak with the ethics contact.


 Recommendation 2


 The Solicitor’s Office should update its list of agency Ethics Contacts, and ensure its distribution to
 all employees.



SOL’s Planned Actions in Response to Recommendation Number Two:


“In light of this finding, on September 11, 2000, we sent out an e-mail notice concerning the
September 22nd agency ethics contacts meeting in which we have requested updated information
from the agency ethics contacts. We are planning to use this information gained to update the
list of agency ethics contacts and will distribute this list by e-mail to appropriate component
agency officials as part of a continued effort ensure this information is kept current.....”


OIG’s Conclusion on Recommendation Number Two:


We consider this recommendation to be resolved and will be closed pending our receipt of a current list
of agency ethics contacts.


Contributors to this report:
Barbara Farrell, Project Leader
Gregory D. Simmons, Director, Division of Evaluations and Inspections


                                                    10
11
          EXHIBIT 1


 SUMMARY OF EXECUTIVE BRANCH
REQUIREMENTS FOR OUTSIDE WORK




             12
                                         Summary of Executive Branch Requirements for Outside Work
Office of Government Ethics Regulations
 5 CFR     Sec. 2635.803 Prior approval for outside employment and activities. When required by agency supplemental regulation issued after February 3, 1993, an employee shall obtain prior
           approval before engaging in outside employment or activities. Where it is determined to be necessary or desirable for the purpose of administering its ethics program, an agency shall,
 Part
           supplemental regulation, require employees or any category of employees to obtain prior approval before engaging in specific types of outside activities, including outside employmen
 2635
           Sec. 2635.802 Conflicting outside employment and activities An employee shall not engage in outside employment or any other outside activity that conflicts with his official duties. A
           activity conflicts with an employee's official duties:
            (a) If it is prohibited by statute or by an agency supplemental regulation; or
            (b) If, under the standards set forth in Secs. 2635.402 and 2635.502, it would require the employee's disqualification from matters so central or critical to the performance of his official du
           that the employee's ability to perform the duties of his position would be materially impaired. Employees are cautioned that even though an outside activity may not be prohibited und
           section, it may violate other principles or standards set forth in this part or require the employee to disqualify himself from participation in certain particular matters under either subpart
           subpart E of this part. (Language taken from the Standards of Ethical Conduct for Employees of the Executive Branch, dated 9/30/99)


Agency Supplemental Regulations
  DEPARTMENT        Supplemental     Regulation       Prior      Employee                                                           Comments
                     Regulation                     Approval
                      Number            Covers      Required     Limitations
                                      Outside
                      & Status
                                     Employment

 Agriculture        5 C.F.R.        Y              Y1           Y2             1
                                                                                 Prior approval for employees* who file either a public or confidential financial disclosure report or an
                                                                               alternative form of reporting approved by OGE.
                    Part 8301
                                                                               2
                                                                                Employees* prohibited from participation in teaching, speaking, writing, or editing that, irrespective of
                    (interim)
                                                                               compensation, either relates to the employee’s official duties or is undertaken pursuant to an invitation
                                                                               extended by any person who is a prohibited source to any employee of USDA.

 Commerce                                                                      No Supplemental Regulations

 Defense            5 C.F.R.        Y              Y1           Y2             1
                                                                                An employee, other than a special Government employee*, who is required to file a financial disclosure
                                                                               report (SF 450 or SF 278) shall obtain written approval from the agency designee before engaging in a
                    Part 3601
                                                                               business activity or compensated outside employment with a prohibited source, unless general approval
                    (interim)                                                  has been given.
                                                                               2
                                                                                Approval shall be granted unless a determination is made that the business activity or compensated
                                                                               outside employment is expected to involve conduct prohibited by statute or regulation.
                                                                               Business activity. Any business, contractual or other financial relationship not involving the provision of
                                                                               personal services by the DoD employee. It does not include a routine commercial transaction or the
                                                                               purchase of an asset or interest, such as common stock, that is available to the general public;
                                                                               Employment. Any form of non-Federal employment or business relationship involving the provision of
                                                                               personal services by the DoD employee. It includes, but is not limited to, personal services as an officer,
                                                                               director, employee, agent, attorney, consultant, contractor, general partner or trustee.


* The following definitions were extracted from (5 CFR2635 Section 2635.102, dated 9/30/99):
Employee is defined as any officer or employee of an agency, including a special Government employee.
Special Government employee means those executive branch officers or employees specified in 18 U.S.C.202 (a). A special Government employee is retained, designated, appointed, or employed to
perform temporary duties either on a full-time or intermittent basis, with our without compensation, for a period not to exceed 130 days during any consecutive 365-day period.
                                                                                             Page 13 of 23                                                                             Revised 11/17/00
                                         Summary of Executive Branch Requirements for Outside Work

  DEPARTMENT        Supplemental     Regulation       Prior      Employee                                                               Comments
                     Regulation                     Approval
                                        Covers                   Limitations
                      Number                        Required
                      & Status        Outside
                                     Employment

 Education          5 C.F.R.        Y              Y1           Y2             1
                                                                                 An employee, other than a special Government employee*, must obtain written approval prior to
                                                                               engaging--with or without compensation--in the following outside activities:
                    Part 6301
                                                                                 (1) Except as provided in paragraph (b)(1) of this section, providing services, other than clerical services or
                    (interim)
                                                                               service as a fact witness, on behalf of any other person in connection with a particular matter:
                                                                                   (i) In which the United States is a party;
                                                                                   (ii) In which the United States has a direct and substantial interest; or
                                                                                 (iii) If the provision of services involves the preparation of materials for submission to, or representation
                                                                               before, a Federal court or executive branch agency.
                                                                                   (2) Except as provided in paragraph (b)(2) of this section:
                                                                                 (i) Serving as an officer, director, trustee, general partner, agent, attorney, consultant, contractor, employee,
                                                                               advisory committee member, or active participant for a prohibited source; or
                                                                                   (ii) Engaging in teaching, speaking, consulting, or writing that relates to the employee's official duties.
                                                                                 (b) Unless the services are to be provided for compensation, including reimbursement for transportation,
                                                                               lodging&meals:
                                                                                 (1) Prior approval is not required to provide services as an agent or attorney for, or otherwise to represent,
                                                                               another
                                                                               Department of Education employee who is the subject of disciplinary, loyalty, or other personnel
                                                                               administration proceedings in connection with those proceedings; or
                                                                                 (i) To participate in the activities of a: (A) Social, fraternal, civic, or political entity; (B) Religious entity that is
                                                                               not a prohibited source; or (C) Parent-Teacher Association or similar parent organization at the employee's
                                                                               child's school or day care center, other than as a member of a board of directors or other governing body of
                                                                               the school or center, or the educational agency of which it is a part; or
                                                                                   (ii) To provide direct instructional, social, or medical services to students or other individuals.
                                                                                 (c) An employee who is required by paragraph (a) of this section to obtain prior written approval shall
                                                                               submit a written request for approval in accordance with Department procedures.
                                                                               2
                                                                                 Not approved if outside activity is expected to involve conduct prohibited by statute or Federal regulations,
                                                                               including 5 CFR part 2635.




* The following definitions were extracted from (5 CFR2635 Section 2635.102, dated 9/30/99):
Employee is defined as any officer or employee of an agency, including a special Government employee.
Special Government employee means those executive branch officers or employees specified in 18 U.S.C.202 (a). A special Government employee is retained, designated, appointed, or employed to
perform temporary duties either on a full-time or intermittent basis, with our without compensation, for a period not to exceed 130 days during any consecutive 365-day period.
                                                                                               Page 14 of 23                                                                                   Revised 11/17/00
                                         Summary of Executive Branch Requirements for Outside Work

  DEPARTMENT        Supplemental     Regulation       Prior      Employee                                                             Comments
                     Regulation                     Approval
                                        Covers                   Limitations
                      Number                        Required
                      & Status        Outside
                                     Employment

 Energy             5 C.F.R.        Y              Y1           Y2             1
                                                                                An employee, other than a special Government employee*, must obtain written approval of his immediate
                                                                               supervisor and the Counselor whether or not for compensation.
                    Part 3301
                                                                               2
                                                                                   Not approved if involves conduct prohibited by statute or Federal regulation.
                    (interim)

 Health &           5 C.F.R.        Y              Y1           Y2             1
                                                                                   Written prior approval, with or without compensation:
 Human
                    Part 5501                                                  1) Providing consultant or professional services, including services as an expert witness,
 Services
                    (final)                                                    2) Engaging in teaching, speaking, writing, or editing that:
                                                                                   i) relates to the employee’s* official duties or
                                                                                ii) would be undertaken as a result of an invitation to engage in the activity that was extended to the
                                                                               employee by a person who is a prohibited source;
                                                                                   A) providing services to a non-Federal entity as an officer, director or board member, or as a member of a
                                                                               group, such as a planning commission advisory council, editorial board, or scientific or technical advisory
                                                                               board or panel, which requires the provision of advise, counsel, or consultation unless the service is
                                                                               provided without compensation other than reimbursement or expenses to a political, religious, social,
                                                                               fraternal, or recreational organization and the position held.
                                                                               3) Food and Drug Administration or Office of the Chief Counsel additional approval requirement:
                                                                                   i) whether or not for compensation or any self-employed business activity:
                                                                                 A) unless position held requires the provision of professional services or is performed for compensation
                                                                               other than the reimbursement of expenses in activities of: political, religious, social, fraternal, or recreational
                                                                               organization.
                                                                               2
                                                                                   Not applicable to special Government employees who:
                                                                               1) Assist in preparing grant applications or grant proposals; consultative or professional services, for
                                                                               compensation, to or on behalf any other person to prepare or assist in the preparation of, any grant
                                                                               application, contract proposal, program report, or other document intended for submission to HHS;
                                                                               2) Employed in any HHS-funded activity funded by an HHS grant, contract, cooperative agreement,
                                                                               cooperative research and development agreement or other funding mechanism authorized by statute;
                                                                               3) Employees of Food and Drug Administration (FDA) and the Office of the Chief Counsel, who are required
                                                                               to file a public or confidential financial disclosure report shall not:




* The following definitions were extracted from (5 CFR2635 Section 2635.102, dated 9/30/99):
Employee is defined as any officer or employee of an agency, including a special Government employee.
Special Government employee means those executive branch officers or employees specified in 18 U.S.C.202 (a). A special Government employee is retained, designated, appointed, or employed to
perform temporary duties either on a full-time or intermittent basis, with our without compensation, for a period not to exceed 130 days during any consecutive 365-day period.
                                                                                               Page 15 of 23                                                                           Revised 11/17/00
                                        Summary of Executive Branch Requirements for Outside Work

  DEPARTMENT        Supplemental     Regulation       Prior      Employee                                                           Comments
                     Regulation                     Approval
                                       Covers                    Limitations
                      Number                        Required
                      & Status        Outside
                                     Employment

 Health & Human Services (continued)                                             i) Engage in any self-employed business activity for which the sale or promotion of FDA-regulated products
                                                                               is expected to constitute ten percent or more of annual gross sales or revenues; or
                                                                                 ii) Engage in employment, as defined in 5 CFR 2635.603(a) whether or not for compensation, with a
                                                                               significantly regulated organization, as defined in Sec. 5501.101(c)(2) unless the employment meets either
                                                                               of the following exceptions:
                                                                                  a Employment consists of the practice of medicine, dentistry, veterinary medicine, pharmacy, nursing, or
                                                                               similar practices, provided that the employment does not involve substantial unrelated non-professional
                                                                               duties, such as personnel management, contracting and purchasing responsibilities (other than normal
                                                                               “out-of-stock” requisitioning) and does not involve employment by a medical product manufacturer in the
                                                                               conduct of biomedical research; or
                                                                                  b) the employment is limited to clerical or similar services (such as cashier or janitorial services) in retail
                                                                               stores, such as supermarkets, drug stores, or department stores.
                                                                               4) Practice of law applicable to attorneys in the Office of the General Counsel
                                                                                  i) Assert a legal position that is or appears to be in conflict with the interests of the Department of HHS, the
                                                                               client to which the attorney owes a professional responsibility; or
                                                                                 ii) Interpret any statute, regulation, or rule administered or issued by the Department.
                                                                               Nothing in this section prevents an employee from: acting, with our without compensation, as an agent or
                                                                               attorney for, or otherwise representing, the employee’s parents, spouse, child or any person for whom, or for
                                                                               any estate for which , the employee is serving as guardian, executor, administrator, trustee, or other personal
                                                                               fiduciary to the extent permitted by 18 U.S. C. 203 and 205, or from providing advice or counsel to such
                                                                               persons or estate; or acting without compensation, as an agent or attorney for, or other representing any
                                                                               person who is the subject of disciplinary, loyalty, or other personnel administration proceedings in
                                                                               connection with those proceedings to the extent permitted by 18 U.S.C. 205, or from providing
                                                                               uncompensated advice or counsel to such person; or giving testimony under oath or from making
                                                                               statements required to be made under penalty for perjury or contempt.




* The following definitions were extracted from (5 CFR2635 Section 2635.102, dated 9/30/99):
Employee is defined as any officer or employee of an agency, including a special Government employee.
Special Government employee means those executive branch officers or employees specified in 18 U.S.C.202 (a). A special Government employee is retained, designated, appointed, or employed to
perform temporary duties either on a full-time or intermittent basis, with our without compensation, for a period not to exceed 130 days during any consecutive 365-day period.
                                                                                             Page 16 of 23                                                                            Revised 11/17/00
                                         Summary of Executive Branch Requirements for Outside Work

  DEPARTMENT        Supplemental     Regulation       Prior      Employee                                                             Comments
                     Regulation                     Approval
                                        Covers                   Limitations
                      Number                        Required
                      & Status        Outside
                                     Employment

 Housing &          5 CFR           Y              Y1           Y2             1
                                                                                Employees, except special Government employees*, shall obtain the prior written approval of an Agency
 Urban                                                                         Ethics Official before accepting compensated or uncompensated employment:
                    Part 7501
 Development
                                                                                 (i) As an officer, director, trustee, or general partner of, or in any other position of authority with, either a
                                                                               for-profit or non profit organization which directly or indirectly receives assistance from the Department.
                                                                                   (ii) With a State or local government; or
                                                                                   (iii) In the same professional field as that of the employee's official position.
                                                                                   (2) Approval shall be granted unless the conduct is inconsistent with 5 CFR part 2635 or this part.
                                                                                 (d) Voluntary services. Subject to the restrictions and requirements contained in the conflict of interest
                                                                               laws, 5 CFR part 2635, and this part, employees are encouraged to volunteer their personal time to nonprofit
                                                                               organizations.
                                                                               2
                                                                               Subject to the exceptions set forth in paragraph (b) of this section, HUD employees, except special
                                                                               Government employees*, shall not engage in:
                                                                                 (1) Employment involving active participation in a business dealing with or related to real estate or
                                                                               manufactured housing including but not limited to real estate brokerage, management and sales,
                                                                               architecture, engineering, mortgage lending, property insurance, appraisal services, construction,
                                                                               construction financing, land planning, or real estate development;
                                                                                 (2) Employment with a person, other than a State or local government, who engages in lobbying activities
                                                                               concerning Department programs or who is required to report expenditures for lobbying activities or register
                                                                               as a lobbyist under 42 U.S.C. 3537b or similar statutes which require the registration of persons who
                                                                               attempt to influence the decisions of officers or employees of the Department;
                                                                                 (3) Employment as an officer or director of a person who is a Department-approved mortgagee, a lending
                                                                               institution or an organization which services securities for the Department; or
                                                                                (4) Employment with the Federal National Mortgage Association, the Federal Home Loan Mortgage
                                                                               Corporation, the Federal Home Loan Bank System or any affiliate thereof.
                                                                                 (b) Exceptions to employment prohibitions. The prohibitions set forth in paragraph (a) of this section do not
                                                                               apply to serving as an officer or a member of the Board of Directors of:




* The following definitions were extracted from (5 CFR2635 Section 2635.102, dated 9/30/99):
Employee is defined as any officer or employee of an agency, including a special Government employee.
Special Government employee means those executive branch officers or employees specified in 18 U.S.C.202 (a). A special Government employee is retained, designated, appointed, or employed to
perform temporary duties either on a full-time or intermittent basis, with our without compensation, for a period not to exceed 130 days during any consecutive 365-day period.
                                                                                               Page 17 of 23                                                                               Revised 11/17/00
                                         Summary of Executive Branch Requirements for Outside Work

  DEPARTMENT        Supplemental     Regulation       Prior      Employee                                                           Comments
                     Regulation                     Approval
                                        Covers                   Limitations
                      Number                        Required
                      & Status        Outside
                                     Employment

 Housing & Urban Development (continued)                                           (1) A Federal Credit Union;
                                                                                 (2) A cooperative or condominium association for a housing project which is not subject to regulation by
                                                                               the Department or, if so regulated, in which the employee personally resides; or
                                                                                   (3) An entity designated in writing by the Designated Agency Ethics Official.
                                                                               Note to Sec. 75.105: An employee assigned to serve in an official capacity as the Department's liaison
                                                                               representative to an outside
                                                                               organization is not engaged in an outside activity to which this section applies. Notwithstanding, an
                                                                               employee may be assigned to serve as the Department's liaison representative only as authorized by law,
                                                                               and as approved by the Department under applicable procedures.

 Interior           5 C.F.R.        Y              Y1           Y2             1
                                                                                Prior approval requirement. (i) An employee of the Department, other than an employee of the U.S.
                                                                               Geological Survey or a special Government employee, shall obtain written approval from his ethics
                    Part 3501
                                                                               counselor or other agency designee before engaging in outside employment with a prohibited source. (ii)(A)
                    (interim)                                                  An employee of the U.S. Geological Survey (USGS), other than a special Government employee, shall obtain
                                                                               written approval from the USGS deputy ethics counselor before engaging in any outside employment. (B)
                                                                               The USGS may issue instructions exempting categories of employment from the prior approval requirement,
                                                                               based on a determination that the employment within those categories would generally be approved and are
                                                                               not likely to involve conduct prohibited by statute or Federal regulation, including 5 CFR part 2635 and this
                                                                               part.
                                                                               2
                                                                                 Prohibited outside employment and activities. Under 43 U.S.C. 31(a), employees of the U.S. Geological
                                                                               Survey shall execute no surveys or examinations for private parties or corporations. (2) Employees in the
                                                                               Bureau of Land Management may not engage in outside employment as real estate agents and realty
                                                                               specialists. Such employees are not required to cancel a real estate license, but may maintain the license
                                                                               on an inactive basis. (3) Employees in the Office of the Assistant Secretary--Indian Affairs, or in the Bureau of
                                                                               Indian Affairs (BIA), may not hold a position on a tribal election board or on a tribal school board which
                                                                               oversees BIA schools.
                                                                               Note to paragraph (a)(3): Except for membership on a tribal election board and a tribal school board which
                                                                               oversees BIA schools, an eligible person employed in the Office of the Assistant Secretary--Indian Affairs or
                                                                               in the BIA may become a candidate for office in his local tribe or may be appointed as a representative of his
                                                                               local tribe if prior approval is obtained from the Deputy Assistant Secretary--Indian Affairs pursuant to
                                                                               paragraph (b) of this section.




* The following definitions were extracted from (5 CFR2635 Section 2635.102, dated 9/30/99):
Employee is defined as any officer or employee of an agency, including a special Government employee.
Special Government employee means those executive branch officers or employees specified in 18 U.S.C.202 (a). A special Government employee is retained, designated, appointed, or employed to
perform temporary duties either on a full-time or intermittent basis, with our without compensation, for a period not to exceed 130 days during any consecutive 365-day period.
                                                                                               Page 18 of 23                                                                         Revised 11/17/00
                                         Summary of Executive Branch Requirements for Outside Work

  DEPARTMENT        Supplemental     Regulation       Prior      Employee                                                            Comments
                     Regulation                     Approval
                                        Covers                   Limitations
                      Number                        Required
                      & Status        Outside
                                     Employment

 Justice            5 C.F.R.        Y              Y1           Y2             1
                                                                                 An employee* must obtain written approval before engaging in outside employment, not otherwise
                                                                               prohibited by paragraph (b) of this section that involves: (i) The practice of law; or (ii) A subject matter,
                    Part 3801
                                                                               policy,or program that is in his component's area of responsibility. Outside employment means any form of
                    (final)                                                    employment, business relationship or activity, involving the provision of personal services whether or not for
                                                                               compensation, other than in the discharge of official duties. It includes, but is not limited to, services as a
                                                                               lawyer, officer, director, trustee, employee, agent, consultant, contractor, or general partner. Speaking, writing
                                                                               and serving as a fact witness are excluded from this definition, so long as they are not combined with the
                                                                               provision of other services that do fall within this definition, such as the practice of law.
                                                                               2
                                                                                 Approval shall be granted only upon a determination that the outside employment is not expected to involve
                                                                               conduct that is prohibited by statute or Federal regulation.
                                                                                   (1) No employee may engage in outside employment that involves:
                                                                                    (i) The practice of law, unless it is uncompensated and in the nature of community service, or unless it
                                                                               is on behalf of himself, his parents, spouse, or children;
                                                                                     (ii) Any criminal or habeas corpus matter, be it Federal, State, or local; or
                                                                                   (iii) Litigation, investigations, grants or other matters in which the Department of Justice is or represents
                                                                               a party, witness, litigant, investigator or grant-maker.
                                                                                 (2) Waivers may be obtained to restrictions where application of the restrictions will cause undue personal
                                                                               or family hardship; unduly prohibit an employee from completing a professional obligation entered into prior
                                                                               to Government service; or unduly restrict the Department from securing necessary and uniquely specialized
                                                                               services, if a determination has been made that the activities covered by the waiver are not expected to
                                                                               involve conduct prohibited by statute or Federal regulation.




* The following definitions were extracted from (5 CFR2635 Section 2635.102, dated 9/30/99):
Employee is defined as any officer or employee of an agency, including a special Government employee.
Special Government employee means those executive branch officers or employees specified in 18 U.S.C.202 (a). A special Government employee is retained, designated, appointed, or employed to
perform temporary duties either on a full-time or intermittent basis, with our without compensation, for a period not to exceed 130 days during any consecutive 365-day period.
                                                                                               Page 19 of 23                                                                         Revised 11/17/00
                                         Summary of Executive Branch Requirements for Outside Work

  DEPARTMENT        Supplemental     Regulation       Prior      Employee                                                           Comments
                     Regulation                     Approval
                                        Covers                   Limitations
                      Number                        Required
                      & Status        Outside
                                     Employment

 Labor              5 C.F.R.        Y              Y1           Y2             1
                                                                                OIG: Before engaging in any outside employment, an OIG employee* must obtain the written approval of
                                                                               the Inspector General or the Inspector General's designee before engaging in any outside employment.
                    5201
                                                                               (ii) Together with the employee's request for approval, the employee shall provide a certification that: (A) The
                                                                               outside employment will not depend in any way on nonpublic information, as defined at 5 CFR 2635.703(b);
                                                                               (B) No official duty time or Government property, resources, or facilities not available to the general public will
                                                                               be used in connection with the outside employment; and (C) The employee has read and is familiar with the
                                                                               Standards of Ethical Conduct for Employees of the Executive Branch (5 CFR part 2635), including subpart H.
                                                                               (“Outside Activities''), and the Department's supplemental standards of ethical conduct set forth in this part.
                                                                               2
                                                                                 OIG: Approval shall be granted only upon a determination that the outside employment is not expected to
                                                                               involve conduct prohibited by statute or Federal regulation.
                                                                               MSHA: Employees in the MSHA and their spouses and minor children are prohibited from having any
                                                                               financial interests (including compensated employment) in any company or other person engaged in mining
                                                                               activities subject to the Federal Mine Safety and Health Act of 1977 (Mine Safety and Health Act), 30 U.S.C.
                                                                               801 et seq.

 State                                                                         Supplemental Regulations are in early stages of development. They have received a number of employee
                                                                               inquiries on outside employment.

 Transportatio      5 C.F.R.        N
 n
                    Part 6001
                    (final)




* The following definitions were extracted from (5 CFR2635 Section 2635.102, dated 9/30/99):
Employee is defined as any officer or employee of an agency, including a special Government employee.
Special Government employee means those executive branch officers or employees specified in 18 U.S.C.202 (a). A special Government employee is retained, designated, appointed, or employed to
perform temporary duties either on a full-time or intermittent basis, with our without compensation, for a period not to exceed 130 days during any consecutive 365-day period.
                                                                                             Page 20 of 23                                                                            Revised 11/17/00
                                         Summary of Executive Branch Requirements for Outside Work

  DEPARTMENT        Supplemental     Regulation       Prior      Employee                                                            Comments
                     Regulation                     Approval
                                        Covers                   Limitations
                      Number                        Required
                      & Status        Outside
                                     Employment

 Treasury           5 C.F. R.       Y              Y1           Y2             1
                                                                                 Prior written approval by employees before engaging in any outside employment or business activities, with
                                                                               or without compensation, except to the extent that the employing bureau issues an instruction or manual
                    Part 3101
                                                                               issuance, exempting an activity or class of activities from this requirement. Each bureau, including the
                    (final)                                                    Departmental Offices & Office of Inspector General, shall issue instructions or manual issuances governing
                                                                               the submission of requests for approval of outside employment or business activities.
                                                                               2
                                                                                   Employment or activity is not expected to involve conduct prohibited by statute.
                                                                               Note: Employees of the ATF, IRS, Legal Division, OCC, USCS and United States Secret Service are subject
                                                                               to additional limitations on outside employment and activities:
                                                                               ATF: no employee of the ATF, or spouse or minor child of an ATF employee, shall have, directly or indirectly,
                                                                               any financial interest, including compensated employment, in the alcohol, tobacco, firearms or explosives
                                                                               industries.
                                                                               IRS: (1) Performance of legal services involving Federal, State or local tax matters; (2) Appearing on behalf of
                                                                               any taxpayer as a representative before any Federal, State, or local government agency, in an action involving
                                                                               a tax matter except on written authorization of the Commissioner of Internal Revenue; (3) Engaging in
                                                                               accounting, or the use, analysis, and interpretation of financial records when such activity involves tax
                                                                               matters; (4) Engaging in bookkeeping, the recording of transactions, or the record-making phase of
                                                                               accounting, when such activity is directly related to a tax determination; and
                                                                               (5) Engaging in the preparation of tax returns for compensation, gift, or favor.
                                                                               NIRS Seasonal employees while in non- duty status may engage in outside employment or activities (unless
                                                                               noted elsewhere) obtaining prior written permission.
                                                                               Legal Division: It is prohibited and shall constitute a conflict with the employee's official duties for an attorney
                                                                               employed in the Legal Division to engage in the outside practice of law that might require the attorney to: (1)
                                                                               Take a position that is or appears to be in conflict with the interests of the Department of the Treasury which
                                                                               is the client to whom the attorney owes
                                                                               a professional responsibility; or (2) Interpret any statute, regulation or rule administered or issued by the
                                                                               Department.




* The following definitions were extracted from (5 CFR2635 Section 2635.102, dated 9/30/99):
Employee is defined as any officer or employee of an agency, including a special Government employee.
Special Government employee means those executive branch officers or employees specified in 18 U.S.C.202 (a). A special Government employee is retained, designated, appointed, or employed to
perform temporary duties either on a full-time or intermittent basis, with our without compensation, for a period not to exceed 130 days during any consecutive 365-day period.
                                                                                                Page 21 of 23                                                                          Revised 11/17/00
                                        Summary of Executive Branch Requirements for Outside Work

  DEPARTMENT        Supplemental     Regulation       Prior      Employee                                                          Comments
                     Regulation                     Approval
                                       Covers                    Limitations
                      Number                        Required
                      & Status        Outside
                                     Employment

 Treasury (continued)                                                          Office of the Comptroller of the Currency: No covered OCC employee shall perform services for
                                                                               compensation for any bank, banking or loan association, or national bank affiliate, or for any officer, director
                                                                               or employee of, or for any person connected in any capacity with a bank, banking or loan association or
                                                                               national bank affiliate. (For purposes of prohibitions on outside employment ``covered OCC employee''
                                                                               means: (i) An OCC bank examiner; and (ii) Any other OCC employee specified in an OCC instruction or
                                                                               manual issuance whose duties and responsibilities, as determined by the Comptroller of the Currency or
                                                                               his or her designee, require application of the prohibition on outside employment to ensure public
                                                                               confidence that the OCC's programs are conducted impartially and objectively)
                                                                               US Customs Service: No employee of the USCS shall work for a customs broker, international carrier,
                                                                               bonded warehouse, foreign trade zone, cartman, law firm engaged in the practice of customs law or
                                                                               importation department of a business, nor be employed in any private capacity related to the importation or
                                                                               exportation of merchandise.
                                                                               US Secret Service: reserved.

 Veterans Affairs                                                              No Supplemental Regulations




* The following definitions were extracted from (5 CFR2635 Section 2635.102, dated 9/30/99):
Employee is defined as any officer or employee of an agency, including a special Government employee.
Special Government employee means those executive branch officers or employees specified in 18 U.S.C.202 (a). A special Government employee is retained, designated, appointed, or employed to
perform temporary duties either on a full-time or intermittent basis, with our without compensation, for a period not to exceed 130 days during any consecutive 365-day period.
                                                                                             Page 22 of 23                                                                           Revised 11/17/00
  APPENDIX
Agency Response
